 REVIEW OF RELOCATION OF THE SYSTEM PROGRAM OFFICE
 AND LOGISTICS SUPPORT FOR THE F-117A STEALTH FIGHTER



Report No. 98-109                          April 10, 1998




              Office of the Inspector General
                  Department of Defense
 Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, home page at: www.DoDIG.OSD.MIL.


 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support Directorate
 at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
 can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884


 Defense Hotline


 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
 or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronym

LMSW                 Lockheed Martin Skunk Works
                                  INSPECTOR    GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202




                                                                          April 10, 1998



MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
               (FINANCIAL MANAGEMENT AND COMPTROLLER)


SUBJECT: Review of Relocation of the System Program Office and Logistics Support
         for the F-117A Stealth Fighter (Report No. 98-109)

       We are providing this final report for information and use. We performed the
review in response to a congressional request. We considered management comments
on the draft of this report in preparing this final report.

        The actions that the Assistant Secretary of the Air Force (Acquisition) has taken
since the issuance of our draft report or plans to take conform to the requirements of
DOD Directive 7650.3 and left no unresolved issues. No further comments are
required.

         We appreciate the courtesies extended to the staff. Questions on the review
should be directed to Mr. Brian M. Flynn, Program Director, at (703) 604-9051
(DSN 664-9051) or Ms. Delpha W. Martin, Project Manager, at (703) 604-9075
(DSN 664-9075), email < dwmartin@dodig.osd.mil > . See Appendix E for the report
distribution. The audit team members are listed inside the back cover.




                                     Robert J. Lieberman
                                  Assistant Inspector General
                                          for Auditing
                              Offke of the Inspector General, DOD
    Report No. 98-109                                                         April 10, 1998
     (Project No. 7AL-5042)

                                  Relocation of the
                System Program Office and Logistics Support for the
                              F-l 17A Stealth Fighter

                                     Executive Summary

    Introduction. This report addresses the relocation of the System Program Office and
    logistics support for the F-l 17A Stealth Fighter. The review was conducted in
    response to a congressional request. The Air Force has approved the F-l 17A
    acquisition plan to award a 5-year, cost-plus-incentive-fee contract for sustainment and
    depot-level modification of the F-l 17A aircraft to Lockheed Martin Skunk Works for
    $2 billion.

    Review Objectives. The primary objective was to evaluate the process and
    documentation that the Air Force is using in deliberations involving the relocation of
    the F-117A System Program Office and the use of a contract for logistics support of the
    F-l 17A Stealth Fighter. We also assessed personnel practices used in realignment of
    the System Program Office, We reviewed management controls as they applied to the
    overall objectives.

    Review Results. Air Force studies indicated that if the System Program Office
    organization was to remain unchanged, the most efficient option would be to transfer it
    in total to Hill Air Force Base. As an acquisition reform initiative, the Air Force
    determined that the Lockheed Martin Skunk Works contract would result in a
    streamlined Project Office and, therefore, would reduce administrative overhead.
    Therefore, acquisition streamlining initiatives to reduce personnel superseded the
    relocation studies.

    Interviews with personnel currently working or having worked in the F-l 17A System
.   Program Office showed that personnel rights were fully protected during the
    realignment process.

    The Air Force may be implementing a contracting initiative, without adequate
    management controls, that emphasizes reducing the Government’s program
    management infrastructure but may not achieve projected cost reductions.
    Specifically, the acquisition plan does not:

           o identify and eliminate redundant tasks and positions currently in the System
    Program Office;

           o identify the tasks and levels-of-effort required for contract purposes;

            o provide for the increased risks associated with the change from predominately
    futed-price contracts to a single cost-plus-incentive-fee contract;
        o rely on $20 million in projected cost avoidance to be realized over the 5-year
contract period, but instead it projects cost avoidance of $65 million over an a-year
period;

       o identify $631,000 of warehouse racks and support equipment for reuse;

       o provide an adequate cost tracking system to manage cost growth;

        o consider the existing spares to be provided to the contractor in planning for
contract funding; and

       o make a provision for Government retention of competency in the area of low
observable technology.

As a result, the Air Force has no assurance that the F-l 17A Program will achieve
anticipated cost avoidance. See Part I for details. See Appendix A for details on the
management control program.

Summary of Recommendations. We recommend that the Assistant Secretary of the
Air Force (Acquisition) direct the F-l 17A System Program Office to take actions to
address the concerns that we identified before issuing the contract and retain internal
low observable technology competency.

Management Comments. The Assistant Secretary of the Air Force (Acquisition)
concurred with the report recommendations to address all identified concerns before
awarding the contract and retain internal low observable technology competency. The
comments stated that many recommended actions have already been taken or are
planned over the course of contract negotiations. The comments stated that contract
effort, combined with relocation and streamlining of the System Program Office, is an
exceptional opportunity to accomplish innovative acquisition reform initiatives at
substantial savings to the Government. See Part I for a summary of management
comments and Part III for the complete text.

Audit Response. We consider the management comments to be fully responsive, and
we commend the Assistant Secretary of the Air Force (Acquisition) for responsive
actions.




                                                ii
Table of Contents
Executive Summary                                             i


Part I - Review Results
      Review Background                                       2
      Review Objectives                                       3
      Selected Contract Approach                              4

Part II - Additional Information
     Appendix A. Review Process
       Scope                                                 14
       Methodology                                           14
       Management Control Program                            15
       Summary of Prior Coverage                             16
     Appendix B. Other Matters Addressed in the Review       17
     Appendix C. Budgetary Cost Avoidance                    18
     Appendix D. Cost Avoidance Derived From Repair Versus
      Manufacture of New Part                                22
     Appendix E. Report Distribution                         24



Part III - Management Comments
      Department of the Air Force Comments                   28
Part I - Review Results
Review Background

    Congressional Request. This review was initiated at the request of Utah
    Senators Orrin Hatch and Robert Bennett and Congressman James V. Hansen on
    April 17, 1997. The request was that we complete a review regarding
    relocation of the System Program Office and logistics support for the F-l 17A
    Stealth Fighter independent of the Air Force. We issued an announcement letter
    on June 4, 1997, and began an immediate review. Based on preliminary review
    results, we sent a letter to the Assistant Secretary of the Air Force (Acquisition)
    on September 5, 1997, requesting that the Air Force delay actions that could
    imply a commitment to the unsolicited logistics support contract until our
    review was complete. The Air Force responded to our letter that any further
    delay in development and expeditious implementation of the Lockheed Martin
    Skunk Works (LMSW) contract will jeopardize continued outstanding F-l 17A
    fleet support. The Air Force approved the Acquisition Strategy Plan on
    September 24, 1997, to award a 5-year, cost-plus-incentive-fee contract for
    sustainment and depot-level modification of the F-l 17A aircraft to LMSW for
    $2 billion.

    Air Force studies indicated that if the System Program Office organization was
    to remain unchanged, the most efficient option would be to transfer it in total to
    Hill Air Force Base. However, as an acquisition reform measure the Air Force
    determined that the LMSW contract would result in a streamlined Project Office
    and therefore would reduce administrative overhead. Therefore, acquisition
    streamlining initiatives to reduce personnel superseded the relocation studies.

    The F-l 17A Stealth Fighter System Program Office has no maintenance
    positions. So, relocation decisions were not impacted by Defense base
    realignment and closure provisions. Interviews with personnel currently
    working or having worked in the F-l 17A Stealth Fighter System Program
    Office showed that personnel rights were fully protected during the realignment
    process. (See Appendix B for details.)

    History of the F-117A Aircraft. On November 10, 1988, the Secretary of
    Defense announced the existence of a secret wing of F-l 17A combat capable
    stealth fighter aircraft. The Air Force transitioned the aircraft from acquisition
    to sustainment management in 1989 and received the last production aircraft in
    1990. The Sacramento Air Logistics Center was designated the System
    Program Office for the aircraft. In 1995, a Defense base realignment and
    closure decision was made to close the Sacramento Air Logistics Center. At the
    time of our review, the System Program Office had 226 approved personnel
    positions, of which 186 were filled. The 49th Fighter Wing personnel located
    at Holloman Air Force Base perform F-l 17A maintenance at organization and
    intermediate levels. LMSW, the prime contractor for F-l 17A production,
    provides the majority of depot-level maintenance (approximately 75 percent).

    Un December 20, 1995, LMSW approached Air Force management with an
    unsolicited proposal claiming to save the Air Force approximately $80 million
    over the next 8 years by taking responsibility for total system maintenance of

                                         2
     the F-l 17A aircraft. Air Force Materiel Command declined the offer in March
     1996. The Air Force Materiel Command response to the unsolicited LMSW
     proposal stated that LMSW did not take into account several Air Force cost
     areas critical to making the proposal a feasible business option. However, the
     Air Force used the opportnnity presented by the concept of the LMSW
     unsolicited proposal to implement acquisition streamlining initiatives to reduce
     administrative overhead, especially in light of anticipated reductions in the
     Federal acquisition workforce. The Air Force requested that LMSW present
     another proposal that would streamline the overall program. The goal was to
     reduce program oversight consistent with other unclassified programs.


Review Objectives

    The primary objective was to evaluate the process and documentation that the
    Air Force was used in deliberations involving the relocation of the F-l 17A
    System Program Office and the use of a contract for logistics support of the
    F-l 17A Stealth Fighter. We also assessed personnel practices used in
    realignment of the System Program Office. See Appendix A for a discussion of
    review scope, methodology, and prior coverage.




                                        3
Selected Contract Approach
The Air Force did not thoroughly consider all issues before approving an
acquisition plan to award a $2 billion sole-source, cost-plus-incentive-fee
contract for sustainment and depot-level maintenance of the F-l 17A
aircraft. Specifically, the acquisition plan does not:

        o identify and eliminate redundant tasks and positions currently
in the System Program Office;

        o identify the tasks and levels-of-effort     that a sustainment
contractor should perform;

        o provide for the increased risks associated with the change from
predominately fixed-price contracts to a single cost-plus-incentive-fee
contract;

       o rely on $20 million in projected cost avoidance to be realized
over the 5-year contract period, but instead it projects cost avoidance of
$65 million over an 8-year period;

       o identify $631 thousand       of warehouse    racks and support
equipment for reuse;

       o provide adequate cost tracking to manage cost growth;

        o consider the existing spares to be provided to the contractor in
planning for contract funding; and

       o make a provision for Government retention of competency in
low observable technology.

The flaws in the Air Force plan were caused by the accelerated pace
with which the contract with LMSW is being implemented. As a result
of those flaws, the Air Force has no assurance that the F-117A Program
will achieve anticipated cost avoidance. The Air Force may overstate
the contract baseline as much as $100 million for Government-furnished
spares. Further by not identifying existing warehouse rack and support
equipment, the Air Force could spend $.6 million unnecessarily.




                             4
                                                        Selected Contract Approach



Declassification of the F-117A Program

     The F-l 17A Program was declassified on November 10, 1988. The Manpower
     and Quality Group, McClellan Air Force Base, performed a most efficient
     organization study of support for the F-l 17A. The study, issued on
     February 14, 1997, concluded that McClellan Air Force Base, Holloman
     Air Force Base, and the depot maintenance facility operated by LMSW at
     Palmdale, California, provided adequate program support. However, the study
     did not consider the declassification of the F-l 17A or the effect that the
     declassification of the program should have on the tasks performed by the
     System Program Office. Our review of the organization showed that since the
     program was declassified, the Air Force has not considered the elimination of
     redundant functions and positions relating to declassification of the program.
     Specifically, after the program was declassified, the System Program Office:

             o retained 63 warehousing and item management personnel that perform
     tasks readily transferable to the Air Force logistic community, and

           o added two security personnel after the declassification of the program
     when security tasks should have been declining.

     As a result, the F-l 17A System Program Office has more than 200 authorized
     positions rather than reducing in size as is typical when a program transitions
     into unclassified sustainment.


System Program Office Tasks

    The Air Force indicated that the reduction in workload and management
    achievable by the contract would result in a cost avoidance of $65 million over
    an 8-year period. The projected cost avoidance was based on a reduction of 200
    System Program Office personnel from 220 to 20 people. The most efficient
    organization study issued by the Manpower and Quality Group on February 14,
    1997, concluded that a staffing level of 186 was appropriate for the full range of
    tasks that the System Program Office performed. The System Program Office
    is presently staffed at that level. Of the 186 positions, the most efficient
    organization study found that only 52 were required to perform inherently
    Governmental functions in areas such as contracting, financial management,
    program execution, budget oversight, and program security. (See Appendix C,)
    Therefore, the anticipated avoided personnel costs of $65 million attributed to a
    reduction of 200 personnel may not be realized.
Selected Contract Approach



Staffing Levels

      The System Program Office has not identified the functions that the F-l 17A
      declassified program should perform in its sustainment phase; identified tasks
      that other existing Air Force organizations should perform; and identified the
      tasks and levels-of-effort that a sustainment contractor should perform.

               Item Management. As systems mature or transition out of the
      classified environment, item management responsibility is normally assumed by
      Air Logistics Center personnel. During program declassification, the Air Force
      reviewed but did not act to transition item management from the System
      Program Office to an Air Logistics Center and commensurately reduce
      personnel. Item management could be more efficiently performed at an Air
      Logistics Center. The System Program Office currently has 36 personnel
      assigned to item management.

              Warehousing and Transportation. The main F-l 17A warehouse is
      operated in facilities located at the Sacramento Air Logistics Center with
      supporting warehouse facilities maintained by LMSW in Palmdale, California,
      and by the Air Combat Command at Holloman Air Force Base. The System
      Program Office has 27 personnel that provide warehousing and transportation
      functions. Warehousing and transportation is not a typical function for a
      System Program Office. The F-l 17A originally provided its own warehousing
      and transportation as a result of the classified nature of the program.

              Contract Management. The System Program Office had aggressively
      pursued competitive breakout procurement practices and currently has 6 of the 9
      contract personnel managing approximately 180 breakout contracts. The Air
      Combat Command has realized a 23 percent savings in operational costs because
      of spares breakout and competitive procurements. The proposed reorganization
      of the System Program Office recommends a reduction of six contract
      management personnel. Three contract management personnel would be
      retained to manage the proposed LMSW contract. The items that were
      previously broken out would be placed under the LMSW contract. LMSW
      would assume responsibility for procurement and management of spares.
      Elimination of the six contract management positions would decrease Air Force
      costs by the six salaries (6 x $50,000 = $300,000), but the decrease would be
      more than offset by the increased LMSW material handling charges (as much as
      $7 million) for the 180 breakout contracts that would be turned over to LMSW
      for administration.

              Production Management. The System Program Office has 20
      production management personnel to track depot maintenance work. Nine
      additional personnel are assigned to the LMSW facility in Palmdale to monitor
      contractor performance. The F-l 17A has been out of production for 8 years.
      The number of production management positions appears to be excessive and
      not in keeping with the acquisition reform initiative of reducing quality
      assurance overhead. System Program Office quality assurance staff appears to
      duplicate Defense Contract Management Command quality assurance oversight.

                                          6
                                                      Selected Contract Approach


             Development and Engineering. The System Program Office has
    engineering and associated personnel. Additional engineering support is
    provided by the Development System Office located at the Aeronautical Systems
    Center,. Dayton, Ohio. The System Program Office has 44 engineering and
    reliabihty personnel for contractor oversight, while the Development System
    Office has 36 such personnel. Duplication of engineering functions appears to
    exist between the System Program Office and the Development System Office.


Contract Risk

    DOD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information System
    (MAIS) Acquisition Programs, n March 15, 1996, requires that each program
    develop and document an acquisition strategy that will serve as the roadmap for
    program execution from its initiation through post-production support. A
    primary goal in developing an acquisition strategy is to minimize the time and
    cost of satisfying a validated need, consistent with common sense and sound
    business practices.

    The Air Force acquisition strategy for the F-117A is to reduce the System
    Program Office oversight and size and consolidate most functions into a single
    contract to LMSW. That strategy moves away from multiple competitive
    contracts, which are predominantly fixed-price, to essentially a cost-plus-
    incentive-fee contract. Moving from fixed-price to cost-plus-incentive-fee
    contracting increases the risk to the Government. The risk to the Government is
    further magnified by the fact that the management and oversight provided by the
    System Program Office will be significantly reduced. By removing competitive
    procurement practices and traditional System Program Office oversight, the
    Air Force has increased the risk to the Government. The Air Force strategy has
    not recognized the added risk and has not implemented management controls
    necessary to manage the risk.


Budgetary Cost Avoidance

    LMSW initially indicated to the Air Force that the proposed contract would
    result in annual cost avoided in excess of $10 million over the proposed 8-year
    contract period. In essence, the original proposal of LMSW projected cost
    avoidance of approximately $80 million over an 8-year period. Air Force
    management could not fully explain or provide supporting data for the total
    $80 million cost avoidance.

     The Air Force provided documentation to us indicating that reducing the total
     requested budget for the program by $65 million over an 8-year period is
     possible if the LMSW proposal was accepted. Specifically, the program would
     reduce the requested budget by $20 million during the 5-year contract period
     and $45 million during the following 3 option years. However, the Air Force


                                        7
Selected Contract Approach


      plan is to renegotiate the contract at the end of 5 years before exercising the
      3 option years and, because the Air Force has historically received less than the
      total requested budget, we question the use of the budget as the basis for
      calculating avoided cost.

      The Air Force plan to consolidate several contract functions under a single
      source expands the scope of the present contract of LMSW. The analyses
      supporting the acquisition strategy should be explicit as to the underlying
      assumptions. The acquisition strategy should clearly delineate anticipated future
      benefits and costs.

      The data in Appendix C, Table 1, show that total program cost was declining
      based on the traditional System Program Office oversight with corresponding
      contractor involvement. The declining cost reflects that management was able
      to maintain the program below the inflation factor, as supported and verified by
      the user, the Air Combat Command. Appendix C, Table 2, shows that the
      LMSW proposed contracting approach will increase overall program cost. As
      shown in the figure in Appendix C, the contracting approach returns the
      program to cost increases reflective of normal inflation. No cost avoidance can
      be truly realized if the overall cost of the program is increasing.


Warehouse Support Equipment

      The Air Force has procured architectural and engineering drawings to refurbish
      and modify a Government-owned contractor-operated warehouse facility located
      in Palmdale, California. The facility would be used to replace the existing
      F-l 17A warehouse facilities at the Sacramento Air Logistics Center and those
      already maintained by LMSW in Palmdale. Estimates to modify the
      Government-owned contractor-operated facility are about $2.5 million. The
      Air Force plan to relocate the warehouse does not consider using the racks and
      support equipment in the Sacramento Air Logistics Center warehouse. By
      relocating the racks and sup ort equipment to Palmdale, the Air Force could
      realize a cost avoidance of 963 1,000. If the warehouse racks and support
      equipment are not transferred to Palmdale, then they should be identified as
      available to the Defense base realignment and closure reuse authority.


Cost Tracking

      Contract Historical Data. The System Program Office stated in the draft sole-
      source justification and approval letter for the contract with LMSW that fair and
      reasonable prices can be negotiated based on supporting information and
      documents from the Defense Contract Audit Agency and Defense Contract




                                          8
                                                              Selected Contract Amroach


    Management Command offices when applicable. According to historical data,
    System Program Office contract personnel and cost analysts documented that:
                     the contractor demonstrated minimal concern for cost control;
               hab ‘a marginal cost tracking system; made minimal effort to initiate
               cost reduction programs, and had a record of cost overruns.

    Through the Defense Contract Management Command, the Air Force is
    implementing some controls with LMSW. The Defense Contract Management
    Command has assisted LMSW in setting up an earned value accounting system
    that should provide some cost monitoring. Further, the Defense Contract
    Management Command has requested that the Air Force allow it to have a
    greater oversight role in the F-117A program. The Defense Contract
    Management Command’s greater role is a step in the right direction to control
    cost growth.

    Budget Data Provided to LMSW. In an effort to develop a partnership with
    the contractor, the Program Executive Officer provided the Government’s total
    budget data to LMSW. System Program Office personnel recognized that
    providing total budget data to the contractor will complicate the Government’s
    negotiation position. LMSW representatives attended the Acquisition Strategy
    Panel meeting on September 24, 1997. At the meeting, F-117A System
    Program Office personnel informed LMSW that the budget had been increased.
    As a result of the potential budget increase, LMSW verbalized that it would
    correspondingly increase its tentative proposal. As a result, the LMSW
    proposal appears to be based on the F-l 17A budget data rather than on actual
    anticipated workload. We are further concerned that the Air Force has
    established the contract baseline based on funds budgeted instead of a detailed
    analysis of expected workload.


Spares Consumption

    As part of the Air Force acquisition strategy, existing spares will be turned over
    to LMSW for use in the contract. The Air Force has not considered a reduction
    in the contract baseline commensurate with the level of projected use of existing
    spares.

    The F-l 17A program has three warehouses that contain approximately
    $100.8 million worth of expendable spares that support the aircraft. The spares
    are in addition to readiness pack-out boxes. So, depletion of existing spares
    would not affect the readiness capability of the aircraft. Warehousing of
    F-117A spares at Sacramento Air Logistics Center is redundant to those
    functions currently performed at Holloman Air Force Base and LMSW. The
    System Program Office plans to move the Sacramento Air Logistics Center
    warehouse to an LMSW warehouse in Palmdale, California. In addition, the
    Air Force justification and approval for the LMSW contract delineates that the
    Air Force will provide incentives for LMSW to deplete existing spares. We
    commend the System Program Office for taking efforts to eliminate warehouse
    function redundancy and for depletion of existing spares. However, because the
    spares are Government-furnished materiel, the contract cost baseline should be

                                            9
Selected Contract Amroach


      reduced equivalent to the amount that will be realized through depletion of
      spares. Our review of the existing spares showed that the F-l 17A program has
      spent an average of $21 million a year for expendable spares. Our statistical
      analysis of the existing spares and historical use showed that through contractor
      depletion, the program could save at least $8 million the fust year and an
      additional $4 million the second year of the contract. The depletion of the
      remaining existing spares would result in additional cost avoidance.


Low Observable Technology
      The acquisition plan of the Air Force has not made provisions to retain in-house
      low observable technology capabilities. The System Program Office was able to
      reduce costs by using in-house repair instead of prime contractor replacement of
      low observable components. System Program Office engineering, in
      cooperation with the Advanced Composite Shops at Sacramento Air Logistics
      Center, were able to design, analyze, repair, manufacture, and test low
      observable components. The System Program Office developed low observable
      component, level III drawing packages for competitive procurement (See
      Appendix D for details). The Air Force needs to recognize the value that
      engineering oversight has provided in maintaining the System Program Office as
      a smart customer. The Air Force needs to maintain low observable engineering
      and fabrication capabilities at the appropriate air logistics organization for future
      use.


Accelerated Pace

     Based on preliminary review results, we sent a letter to the Assistant Secretary
     of the Air Force (Acquisition) on September 5, 1997, requesting that the
     Air Force delay actions that could imply a commitment to the unsolicited
     logistics support contract until our review was complete. The Air Force
     responded to our letter that any further delay in development and expeditious
     implementation of the LMSW contract would jeopardize continued outstanding
     F-l 17A fleet support. The Air Force approved the Acquisition Strategy Plan on
     September 24, 1997, to award a S-year, cost-plus-incentive-fee contract for
     sustainment and depot-level modification of the F-l 17A aircraft to LMSW for
     $2 billion. As a result, the Air Force may be implementing a contracting
     initiative, without adequate management controls, that emphasizes reducing the
     Government’s program management infrastructure over reducing costs.


Conclusion

     The Air Force plan is to consolidate contract functions under a contract that
     would reduce the System Program Office infrastructure that provides oversight
     for F-117A aircraft sustainment. Our review of the program showed that the


                                           10
                                                      Selected Contract Approach


    Air Force did not streamline functions and personnel as a result of program
    declassification. The Air Force has not provided a baseline for the logistic
    support contract. The Air Force has not identified $631,000 worth of
    warehouse racks and support equipment for reuse. Management controls have
    not been implemented to address the added risk of establishing a sole-source,
    cost-plus-incentive-fee contract. Projected cost avoidance resulting from the
    proposed LMSW contract are not realistic. The contractor’s cost tracking
    system needs to be verified and monitored. The Air Force is providing the
    contractor approximately $100 million worth of expendable spare parts with an
    incentive to reduce spares inventory without a commensurate reduction to the
    contract baseline. The Air Force has no plans to retain in-house low observable
    technology capabilities.



Recommendations, Management Comments, and Audit
Response

    We recommend that the Assistant Secretary of the Air Force (Acquisition):

    1. Direct that the F-117A System Program Office take the following actions
    before implementation of the acquisition plan:

            a. Identify functions within the System Program Office that are no
    longer required in the unclassified environment and those functions that
    could be more economically and effectively performed by other
    Government organizations and determine, based on the resultant System
    Program Office staffing, whether suffkient reductions exist to warrant the
    acquisition plan.

           b. Identify specific tasks and levels-of-effort appropriate for the
    contract.

            c. Identify risks associated with the acquisition plan, implement a
    management control plan to manage those risks, and ensure that options
    exist to recover costs if the contractor does not control cost.

           d. Validate the cost avoidance that can be realized through the
    approved acquisition plan during the contract term by establishing a
    baseline for the cost avoidance and metrics to determine progress in
    achieving the baseline.

           e. Verify that the contractor cost tracking system is in place, and
    that the Defense Contract Management Command will be able to monitor
    cost associated with the F-117A Program.

           f. Reformulate the contract baseline to include the cost avoidance
    that the contractor will realize as a result of depletion of Government-
    furnished spares.

                                       11
Selected Contract Approach


              g. Use the existing warehouse equipment for cost reduction or
      identify it to the Defense base realignment and closure reuse authority.

      2. Retain within the remaining Air Logistics Centers the internal low
      observable technology competency.

      Management Comments. The Assistant Secretary of the Air Force
      (Acquisition) concurred with the recommendations and stated that the F-l 17A
      System Program Office would take or has taken the following actions:

             o properly sizing itself to support the current method of doing business;

              o completing a zero-based analysis of all Government and contractor
      tasks, including levels of effort;

             o incorporating options to manage the risk in the acquisition plan;

              o negotiating and validating annual target prices through the normal
      proposal process, which will avoid $80 million stated in the Government’s
      projected budget and $90 million associated with the reduction of system
      program office personnel over the 8-year period;

             o instituting a contractor cost tracking system, with which the Defense
      Contract Management Command will monitor cost associated with the F-117A
      Program;

             o revising the contract baseline to reflect the anticipated reduction in
      purchased spares; and

             o identifying the racks to the Local Reuse Authority.

      In addition, the Air Force is establishing a Low Observable Center of
      Excellence at Wright-Paterson Air Force Base.




                                          12
Part II - Additional Information
Appendix A. Review Process

Scope

    We conducted this review from June through December 1997, and we reviewed
    data dated from April 1984 through September 1997. To accomplish the
    objective, we reviewed the Federal Acquisition Regulations. In addition, we
    reviewed documentation received from the Air Force Audit Agency, the
    Program Executive Officer, the F-l 17A System Program Office, the Air
    Combat Command, the 49th Fighter Wing, and Lockheed Martin Skunk Works.
    Documentation included:

             l 1996 and 1997 organic workload performed          at Sacramento    Air
     Logistics Center,

              budget data,

              flying hour cost,

              legal opinions,

              the transition plan, and

              a justification and approval.

    Further, we discussed issues relating to sole sourcing and locations of workloads
    and personnel with Department of Defense and Air Force acquisition officials
    from programs, technical, and contracting. We also talked with contractor
    personnel on program issues.


Methodology

    We conducted this program review in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DOD, and accordingly included such tests of management
    controls as we deemed necessary. Technical experts from the Engineering
    Branch, Technical Assessment Division, in the Analysis, Planning, and
    Technical Support Directorate of the Inspector General, DOD, assisted in the
    analysis of relocation of the program office and logistics support for the
    F-117A Stealth Fighter. We used statistical sampling procedures to determine
    depletion of existing expendable spares that can reduce the contract baseline up
    to $100 million. Our analysis is based on a 95percent confidence level that
    12,411 to 13,185 line items of expendable spares exist that are valued between
    $96846,662 to $103,169,670. Because the items will be required to support
    the F-l 17A aircraft, a potential cost avoidance can be achieved by depletion of

                                         14
                                                           Appendix A. Review Process


        the items. We have calculated that depletion of the line items can provide funds
        for better use up to $8 million in the first year and $4 million in the second year
        with cost avoidance in future years based on future depletion. The auditor
        calculation is done prospectively and is not subject to confidence bounds
        because the events have not happened, and we have no control over the
        Air Force action to deplete the spares. To respond to the congressional
        requirement in the most timely manner, management controls were not
        reviewed. The review did not place material reliance on the evaluation of
        computer-processed data to support the finding and recommendations.

        Contacts During the Review. We visited or contacted individuals and
        organizations within the DOD. Further details are available upon request.


Management Control Program

        DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
        1996, requires DOD managers to implement a comprehensive system of
        management controls that provides reasonable assurance that programs are
        operating as intended and to evaluate the adequacy of the controls.

         Scope of Review of Management Control Program. In accordance with DOD
         Directive 5000.1, “Defense Acquisition,” March 15. 1996, and DOD
         Regulation 5000.2-R, Mandatory Procedures for Major defense Acquisition
         Programs (MDAPS) and Major Automated Information System (MAIS)
         Acquisition Programs,” March 15, 1996, acquisition managers are to use
         program cost, schedule, and performance parameters as control objectives to
         carry out the DOD Directive 5010.38 requirements. Accordingly, we limited
         our review to management controls directly related to the decisions involved in
         relocation of the system program office and logistics support for the F-l 17A
         Stealth Fighter.

         Adequacy of Management Controls. We identified a material management
         control weakness, as defined by DOD Directive 5010.38, in the management
         control process for relocation and outsourcing logistics maintenance functions.
         The Air Force acquisition strategy did not recognize the added risk and has not
         implemented management controls necessary to manage the risk. Corrective
         actions taken on Recommendation 1.c. will correct the management control
         weakness. A copy of the report will be provided to the senior official in charge
         of management controls for the Air Force.

         Adequacy of Management’s Self-Evaluation. The F-l 17A System Program
         Office had not identified contract administration and management as an
         assessable unit and, therefore, did not identify or report the management control
         weakness identified by the audit.




                                                 15
Appendix A. Review Process


Summary      of Prior Coverage

      During the last 5 years, the General Accounting Office and the Inspector
      General, DOD, have not issued audit reports on the relocation and contracting
      procedures relating to the F-l 17A Stealth Fighter. The Inspector General,
      DOD, issued Audit Report No. 97-164, “Defense Base Realignment and Closure
      Budget Data for the Realignment of the System Program Office From
      McClellan Air Force Base, California,. to Wright-Patterson Air Force Base,
      Ohio, n June 18, 1997. The audit reviewed the accuracy of Defense base
      realignment and closure military construction budget data related to the F-117A
      program. The Air Force had not developed the required documentation;
      therefore, the report recommended that the Under Secretary of Defense
      (Comptroller) place the funding for project PRJY921012Rl on administrative
      withhold until the Air Force resubmits data to support the military construction
      project. The Air Force Audit Agency issued an Installation Report of Audit
      4 15970 17, “Financial Management of Aircraft Maintenance Contractor
      Logistics Support Operations, Sacramento Air Logistics Center, McClellan
      Air Force Base,” April 1, 1997. The audit was centrally directed to evaluate
      the financial management of the F-l 17A aircraft maintenance contractor
      logistics support operations. The audit found that the F-l 17A Program Office
      managed the operations well; therefore, the report contained no findings or
      recommendations.




                                          16
Appendix B. Other Matters Addressed in the
Review
    Air Force relocation studies indicated that if the System Program Office
    organization were to remain unchanged, it should be moved, in total, to Hill
    Air Force Base. The Air Force had two independent teams review the F-l 17A
    program to determine whether the LMSW sole-source contract proposal cost
    would be fair and reasonable. Both teams found that the cost would not be fair
    and reasonable. The studies were based on the move of all functions that are
    currently being performed by the System Program Office to an Air Logistics
    Center. During the time that the relocation studies were being accomplished,
    acquisition streamlining initiatives were developed to reduce administrative
    overhead. Acquisition streamlining initiatives to reduce personnel superseded
    the relocation studies.


System Program Office Location
    The F-l 17A Stealth Fighter System Program Office has no positions designated
    for maintenance. Because the relocation of the System Program Office did not
    affect maintenance positions, coordination with the Defense Depot Maintenance
    Council to facilitate relocation decisions was not required. The Assistant
    Secretary of the Air Force (Acquisition) made the decision to collocate the
    F-l 17A System Program Office with like systems at the Aeronautical Systems
    Center. The Assistant Secretary of the Air Force (Acquisition) implemented
    oversight through the Program Executive Officer for Strategic Programs. The
    decisions appeared valid based on the Assistant Secretary of the Air Force
    (Acquisition) authority.

Personnel
    Interviews were conducted with personnel currently working or having worked
    in the F-l 17A System Program Office. The interviews showed that personnel
    rights were fully protected during the realignment process. Personnel
    interviewed were aware of Government downsizing initiatives. The personnel
    interviewed recognized that Defense base realignment and closure decisions
    made in 1995 were the driving factors to move the F-l 17A System Program
    Office. Personnel interviewed recognized that their positions, as they exist,
    may no longer be required at any location because of the downsizing.




                                       17
Appendix C. Budgetary Cost Avoidance
   LMSW stated to the Air Force that the proposed contract would result in an
   annual cost avoidance to the program in excess of $10 million. Over the
   proposed 8-year contract period, the projected cost avoidance would total
   approximately $80 million. The Air Force stated that the projected cost
   avoidance was based on:

             o downsizing the System Program Office by 200 positions from 220 to
   20, and
          o estimating a total cost avoidance of $50,000 per year for each position
   reduced.

   Neither LMSW nor Air Force management could fully explain or provide
   supporting data for the total $80 million cost avoidance.

   The most efficient organization study of the System Program Office concluded
   that 186 personnel were sufficient to provide the workload baseline. At present,
   the System Program Office is staffed to the 186 position level. Of the 186
   positions, the most efficient organization study found that only 52 were required
   to perform inherently Governmental functions in areas such as contracting,
   financial management, program execution, budget oversight, and program
   security. That assessment would equate to a reduction of 134 positions in the
   System Program Office. Applying the Air Force estimated annual cost
   avoidance of $50,000 per position to the 134-position reduction would result in
   an annual cost avoidance of $6.7 million. Over the proposed 8-year contract
   period, the projected cost avoidance would total approximately $53.6 million.

   The System Program Office provided actual cost data as shown in Table C-l.
   The data show operation and maintenance declining in real dollars each year.
   Those data support the Air Combat Command’s statement that aggressive
   management by the System Program Office has reduced operating cost.




                                       18
                                             Appendix C. Budgetary Cost Avoidance


                           Table C-l.      Actual Program Cost

                    Year                             1995              1996              1997

         Operation and Maintenance’                 $190.5            $182.6           $183.9

         Spares/equipment                              17.8             28.5              19.3

         System Program Office personnel                8.2               8.7              8.2

         System Program Office burden’                  0.5               0.5              0.5

           Total program cost                       $217.0            $220.3           $211.9



The System Program Office also provided the total projected F-l 17A program
budget for the g-year period of the proposed contract with LMSW, as shown in
Table C-2.




’ Operation and Maintenance cost included logistics contracts and program operational cost less
System Program Office personnel cost.

’ System Program Off& burden, the overhead rate, was added by the auditors to make total
System Program Office costs comparable with contractor costs.




                                          19
Appendix C. Budgetary Cost Avoidance


                                  Table C-2. Projected Program Cost

         Year            1999
                         --       2000     2001
                                           ---     2002     2003     2004     _2005    _2006    -Total

                                              (millions)

Operation and Maintenance
 requested budget3      $227.7 $221.6     $221.0 $227.9 $228.9 $235.8        $242.9 $250.2 $1,856.0

System Program Office
 operational cost4         28.3    20.9     18.9     18.9    18.8     18.8     18.8     18.8         0.0

Budget dollars for LMSW
 proposed contract      199.4 200.7        202.1   209.0    210.1    217.0    224.1   231.4     1,693.8

LMSW tentative proposal 192.9 201 .O       202.1   202.2    202.7    206.4    209.5   211.3     1,628.l

Difference betweeu budget
 requested and
 LM!W proposal         $ 6.5 S -0.3       $ 0.0    $ 6.8    $ 7.4 $ 10.6 $14.6        $20.1     $ 65.7



        The projected cost of the F-l 17A program over the 8 years would be
        $1,856 million. Of the $1,856 million requested budget, $1,693.8 million
        would be available for the LMSW proposed contract. The LMSW proposal
        over the &year period is for $1,628.1 million. Therefore, cost avoidance based
        on the difference between the available requested budget and the LMSW
        proposal is $65.7 million. In the 5-year base period of the contract, only $20.4
        million cost avoidance is projected. In the last 3 option years of the contract,
        $45.3 million cost avoidance is projected. The Air Force plans to renegotiate
        the contract before exercising the 3 option years. Therefore, the $45.3 million
        cost avoidance will be dependent on the renegotiation.

        Actual program cost data in Table C-l and the requested budget data in
        Table C-2 are reflected in the following figure. The figure indicates that total
        program cost was declining based on the traditional System Program Office
        oversight with corresponding contractor involvement. The declining cost
        reflects that management was able to maintain the program below the inflation
        factor, as supported and verified by the user, the Air Combat Command. The
        figure also indicates that the budget data in Table C-2 show that the LMSW
        proposed contracting approach will increase overall program cost. The
        contracting approach, as shown in the following figure, returns the program to


        3 Operation and Maintenance cost includes spares cost (accounted for separately in Table C-l).

        ’ System Program Office operation cost includes Government contracts that cannot be included
        in the LMSW contract (such as the engine contract that is provided by Memorandum of
        Agreement with the Navy).


                                                   20
                                        Appendix C. Budgetary Cost Avoidance


cost increases reflective of normal inflation. Therefore, no cost avoidance can
be truly realized if the overall cost of the program is increasing.


 Millions          Comparison of Actual Cost Versus Budget
  260

  250

  240



  230


  220



  210


  200



  190




Actual Cost Versus Budget




                                   21
Appendix D. Cost Avoidance Derived From
Repair Versus Manufacture of New Part

   The System Program Office contacted the Advanced Composites Shop at the
   Sacramento Air Logistics Center to determine reparability of F-l 17A panels
   identified as non-reparable by LMSW. The System Program Office effectively
   used available engineering and fabrication resources inherent at the Sacramento
   Air Logistics Center to achieve $10 million in avoided cost. The data below
   show cost avoided, during the period of FYs 1993 through 1997, derived from
   repairing panels originally deemed non-reparable by LMSW.

                              cost of    Repair       Number        Avoided
     Nomenclature            New Part     cost        Renaired       cost

   Wing platypus panel        $60,100        $4,500     10        $ 556,000

   Lower rear door panel       72,200         7mO       48          3,129,600

   Rear door trailing          76,000         6,ooO      2            140,000
    edge panel

   Inboard platypus panel      56,000         4,200     46          2,410,400

   Outboard platypus panel     80,800         6,500     20          1,486,OOO

   Forward-looking             25,000         1,950    109          2,512,450
    infrared shroud

   Bracket                        348           100     90             22,320

    Total                                                        $10,256,770

   Building on the success of the Advanced Composites Shop to engineer and
   produce repaired panels, the System Program Office requested further support
   to resolve an operational problem. The System Program Office, Advanced
   Composites Shop, and LMSW jointly developed a solution to an exhaust
   overheating problem. The Advanced Composites Shop’s contribution to
   resolving the problem consisted of the redesign of the wing and inboard and
   outboard platypus panels. The Advanced Composites Shop developed level III
   drawing packages of the redesigned platypus panels that would allow the System
   Program Office the option to competitively procure the panels. The redesigned
   panels cost $147,000 to produce. The LMSW proprietary panels that they
   replaced cost $197,500 to produce. The Advanced Composites Shop produced
   70 of the panels.




                                        22
Appendix D. Cost Avoidance Derived Prom Repair Versus Manufacture of
                                                           New Part


In the 1996 Report to Congress, the Secretary of Defense stated that the policy,
“will ensure that organic depots can compete with private sector sources or
repair when there does not appear to be adequate competition for specific DOD
workloads with the private sector. n

The Air Force was able to implement DOD policy and establish low observable
competency through the combination of System Program Office engineering and
the Advanced Composites Shop. This competency includes low observable
design, analyses, repair, manufacture, and test capability.




                                      23
Appendix E. Report Distribution

Offke of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
      Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
  Program Executive Officer Fighter and Bomber Programs
        System Program Director, F-l 17A System Program Office
  Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Combat Command
Auditor General, Department of the Air Force
Commander, Sacramento Air Logistics Center
Commander, Aeronautical Systems Center Detachment 5




                                          24
                                                Appendix E. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Director, Defense Contract Management Command
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Central Imagery Office
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security
  Honorable Orrin Hatch, U.S. Senate
  Honorable Robert Bennett, U. S . Senate
  Honorable James V. Hansen, U.S. House of Representatives
Part III - Management Comments
Department of the Air Force Comments

                                  DEPARTMENT OF THE AIR FORCE

                                               WAstllMGToN,
                                                        DC



otncadthoAsawml~
                                                                                         10 MAR1998




      MEMORANDUMFOR ASSISTANT INSPECTOR GENERAL FOR AUDITING OFFICE OF
                    THE INSPECTOR GENERAL DEPARTMENT OF DEFENSE

      FROM: SAF/AQ

      SUBlECTz DoDIG Draft Report, Relocation of System ProgmmOffice and Logistics Support
               for the F-l 17A Stealth Fighter, December 29.1997, Project No. 7AL-5042

              This is in reply to your memorandum requesting the Assistant Secretary of the Air Force
      (Fiiancial Management and Comptroller) to provide Air Force comments on subject report.

              We have reviewed the subject DoDIG draft report. The attached response is a thorough
      F-l 17 System Program Office appraisal. In the Executive Summary, each 1G Recommendation for
      Corrective Action is specifically addressed and the following detailed explanations serve to clarify the
      Air Force point of view.

              The report recommends many actions already underway and we concur with most of the
      reportrecommendations. We anticipate a June 1998 contractor proposal calling for the delivery of
      improved F-l 17 logistics supportat costs considerablylower than those cumntly projected.
      Adequatemanagementand cost controlswill be in place beforeawardof a Total System
      Performance Responsibility (TSPR) contract for Logistics Support.

             Every critical aspect of the contract, the Statement of Work, contract metrics, and Award
      Fee plan. is on schedule. Based on the attachednsponse to the draftreport,1 see no reasonto
      deviate from this new and innovative cormactingapproachas presentedto the Acquisition Strategy
      Panel on 24 September1997.




       Attachment:
       F-l 17A SPO Responseto DoDIG Report




                                                      28
                                             Department of the Air Force Comments




Project No. 7AL-5042                                                              9 March 1998


                                      Rdocation of the
                F-117 System Program Olke      and Logistics Support for the
                                    F-117 Stealth Fiibter



                                 Executive Summary
The DODIG draft report, dated 29 I)ecrrnber I 997, was reviewed by the F- 117 System Program
office (SPO). The SW objective was to evaluate the dra!I report, indicate areas of collcurrence
andnon concurrence, establish a plan for corrective actions, identify rnonetsry or anticipated
be&Its, and substsntiate each response. The drsft report, uader “Reunnmcndations for
Corrective Actions”, suggested specificactions be taken before implementing the F-I 17
Acquisition Plan, ss approval at the 24 Scpt 97 AquiJition Strategy Panel chaired by
Mrs. Dark      Dntyun, Principal Depaty    Assistant Scrretary of the Air Force (Acquisition
& Management). Most IG recommendations for aetiott are taking place as part of the
implementation of the requisition strategy since the ASP. AU actions will be completed by
contract award of the Total System Perfonnancc Responsibility (R3PR) on 1 October 1998.
Although the Air Force concun witb all the recommendations of the draft report, many of
the statements in the draft report require ciarilication or wmction before inclusion in the
final report.

The DODIG recommendationsquoted below are each followedby a synopsis of the SPO
response. More detailed information is provided in the General Review section,

1a. I&nr#y functions wiihin the System lk)gram G#ke that are IWlong@ required in the
uncl~ficdm~nmcnfrrndt~f~rcaions~eolvld~num~nomicoaya~~~wly
pcrfrmed by other Governmenf organizations and d&ermine, bawd on the resultant System
i+ogwm OfFrc St&fjing,Whethers@cieti re&tSons aist lo womml the acquisition plon

   Concur: The F-1 17 SPO reevaluated      stding requirements in light of program security
   changes. The SPO is now properly sized to support the current method of doing business
   (ye-TSPR). Staffing adjustments have taken place as a red of changes in the security
   environment. ‘Ihe IG believes that reduced fbnctionsl snd security responsibilities might
   permit such I!dramatic drop in personnel that the TSPR acquisition plan may not be
   warmnted. This is not the case. There is a mistake-nunderlying assumption in this
   rccomrnmdation that the F-l 17 program has been “de&ssified”, when in fact, it has only
   been %knowkdg~         with certain classificationlevels reduced or eliminated. The
   acquisition stmtegy is still warranted and a welcome opporn&y to reduce ah categories
   of SPO stalling, including sect&y.




                                                  29
Department of the Air Force Comments




      lb. Ident.Jfispecijic
                        tasksand ki!wlsQfi~~        apptvpkte   forthe wntfact.
         Qrgx     The SPO and LMSW establisheda Transition Integrated Product Team (IPT) to
         perform a zero-based analysis of all Gowxnment and contractor tasks, including levels of
         effort. The team wrote a detailed TSPR transition plan and a Statement of Work (SOW)
         for the TSPR contract

      Ic. Ident@ risks assochd with the aquiSon plan, implementa management    contwl plan
      to managt those&hs, and t?n.wucthat options
                                               to ftwwf coslk if the wllbwtof dbesnot
      wntfol coslt

         Concur: The approaching closure of McClellan APB, reduced out-year budgets, and a
         DODdrive to reinvent the way the Department does business, motivated the Government
         to pursue the TSPR contract effort. Thorough advance planning between the Government
         and LMSW, coupled with unique performanceand cost incentives, encourages and
         enables both organizations to manage the risks associatedwith the change in contract
         type. Potential risks have been identified and addressedin the acquisition plan. The
         Government has incorporated the following options to manage risk: (1) reward the
         contractor for good technical and cost performancethrough increased fae, (2) reduce
         contractor profit to as low as zero for poor technical or cost performance, or as a last
         resort, (3) terminate the contract for lack of performance.

      1d. V.       the cost avoidance that can be r&id through the uppro& a@sition plan
      during the contract term by &Nishing a baseline for the cost awidance and metrics to
      detemdneprvgms in achieving tbc bawlk

         w:        According to the acquisition plan, annual target prices will be negotiated and
         validated through the normal proposal process. The difkcttce between tbe Government’s
         projected budget and the LMSW target price is cost avoidance, and is estimated by
         LMSW at SgOmillion over an &year period. Additionally, over the same period, the
         Government intends to save a projected $90 million associated with the reduction of SPO
         personnel from 226 to a target of 20. This issue is Mher discussed in items 8 and 24 of
         the General Review section.

      1e. Vu@ that the contmiorwsttrackingsystemisinplace,and thbt tJu Defense t3ntmct
      Mauagment Gvmand will be able to or&or castsasdated with the F-l 17 -ram

         Concur: LMSW accounting and e&mating systems are approved by DCMC and DCAA
         These agencies continually monitor the contractor accounting systems.




                                                                                                    2




                                                        30
                                              Department of the Air Force Comments




If Rejhdare      the wntmct baselineto include the cad awidime that the co~tmctor
                                                                                will
realize as a mdt o/depletion ofGowmtmemt-fundshed ~WU.

   wu:     The contract baseline will reflect the anticipated reduction in purchased spares.
   The annual target price will take into account a fair and reasonable price for the level of
   &Ott contracted.

lg. Usethe adsting lwnhouse      epjpntentforcost&action        or id+&..     tothe
rrrrlignmentandclosurn m4se authoriip.

   Concur: An AFMC evaluation concluded the racks could not be cost-ef&ctivelyutilized
   inthePalmdale warehouse facility. The racks have been offered to the Local Reuse
   Authority under the proceduresestablishedby BRAC.

2. R&in within the remaining Air L.&stics Ccntm the intemul lmu observable technology
competency.

   &:       A Low Observable (LO) Cenrer o/&ceflence is being establishedat Wright-
   Patterson AFB where current LO platform SPOs (B-2, F-22, and F- 117)will be
   collocated. The F- 117 SW will contirmeto maintain an LO eng&ring capability at
   WPAFB and Holloman AFB. AFMC has designated 00-ALC as the center for advanced
   composites, including LO structurea for the ACM, B-2, and F-22.




                                                                                                 3




                                                    31
Department of the Air Force Comments




                                           General Review
      Put1of the DODIG d&I repart daails thoughts and observations regarding many areaa of the
      F-l 17 program. The following are clarifications and corrections to the points in the report


      !!Bww!@

      1. (lhgnssiod Request TireAir Force approvedthe Aeqwisitio~~  &u&y Han on
                      20 moord a Qwar, cost-plus-inceniive$?e
      September 24,1997                                      confmcffor sndnmenl and
      de~~~-level
               modi@ztion of tkc F117A ai.xrajI lo L&!JWfor $2 billion. (page 2, para 1, last
      sentence)

         The proposed period of performancefor the F-l 17 Acquisition Plan is eight years. The
         Total System Performance Responsibiiy (TSPR) contract is a cost-plus-incentive-fee.
         with an award fee feature, that includes a S-year basic, a 3-year option, and a contract
         ceiling of $2 billion The contract also inchdes a SO/50cost share ratio for both
         undenur~5and overruns against the target price.

      2. Hislory of the F-II 7AturrfL On December 20,1995, LMSWapproachedAir Force
      managementwithan undicitedplqpod claimingtosavethe Air Forcr appnxiimolc3,$80
      millionoverthe nat 8years 6,ptakingnqonsibiiiQ for total@em maintenanceof the F-
      117aircr@ (page 2, para 2, fist sentence)

         The unsolicited proposal referenced above, F-I I7 TmnsikmtoFull ContructorLogistics
         Suppd, addressed “annual savings in excess of $10 million {and) a manpower savings of
         150 people (that} can be expeckd.” This is a minor distinction, but LMSW made no
         ref&ence to total savings because no contract term had yet been proposed.

      $ckted Conm         ADD-

      3. The Air Forrr did rot use an &q&e procw or deqnate &~nn~diion in &&rations
      kv&ing the dinxtion of the F-11 7svJlrrn prodromO@e. (page4, pan I, first sentence)

         The process ieadii to the 24 Scp 97 ASP decision to relocate the SPO to ASC was
         thorough and well documented. As part of base closure, the SPO was concentrating on
         moving to another AFh4Clocation. During the same time period, LMSW presented a
         white paw to AFMUCC, proposing contractor assumption of SPO duties. A&r an
         independent Government review of the white paper, Gen Viccellio asked L.MSWfor a
         more detailed proposal. In May 96, Gen Viccellio directed the DAC and SPD to develop
         an innovative contracting approach to support the weapon q-stun at a lower overall cost
         By Nov 96, the overall SPO plan evolved into the TSPR approach, with a reduced SPO
         consoliiting at ASC as part of the LO Centa of Excellutcc. In continuance of ti goal
         to reduce life cycle cost through reductions in SPO siz by increasing the level of
         privatization, a SPOlLMsW IPT was formed to develop contract content and structure in




                                                                                                     4




                                                           32
                                            Department of the Air Force Comments




   ~repantitm for an ASP to be chaired by SAFIAQ. The IPT approach to locate a reduced
   SPO at ASC was approved on 24 Sep 97.

   In 1996 Cal Jack Hudson conducted an independent review of the LMSW 15 Dee “White
   Paper” for AFMCYCC(Gen Vicellio). The team presented their findings and
   recommendations to AFMUCC on 23 Feb 96. Cal Hudson attended the 24 Sep 97 ASP
   and stated that the TSPR acquisition strategy had now addressed the concerns identified in
   his indepdent &cw. The SPO ha impkmea!cd 111of the recommendations as follows:

       a. Af;mC should dectine the “White Paper* concept avprepared AFMC
          appreciated LMSW white paper and present&on on the subject of TSPR, but
          declined to make any firn~decision until a more-definedconcept was proposed

          b.Asrkfor a serious, well-snbstnntiatedp~posal which me& USAF objectives.
          LMSW submitted a well-substantiatedproposal that met the USAF objectives and
          was approved by the SAF/AQ Acquisition Strategy Panel on 24 Sep 97

       c. Move fiw nwehoUsc and specific item m4nQgmellt adli@   10 Palmdak

          Consolidation of the SM-ALUQLA and LMSW warehouses is in progress at AF
          Plant 42, building 720 in Pahndale, CA

       d. Move flk4SpO toASCandconrolidrdwifh @he F-1171 Deveb+vnentSPO.
          The SPO is in the process of developing the CONOPS to establish a “Functional
          Transfer” of the SPD and SPO sustainment activities at Wright Patterson AFB,
          OH and will be completed by I Ou 98.

4. ?7reAir Fom did not thghb         wnsi&r all kes br/on approving an acqnkition plan
to award a $2 billion sole-some, cast-plus-incmb’vc_Icccontmt for snstainment and depot-
level maintenance of Ike F-II 7 ak7ajI (page 4, para 1, second sentence)

   The nine-month review process leading to this decision was thorough, well-documented,
   and involved the entire F-l 17 community, including members of HQ AFMC, HQ ACC,
   SAF/AQ, USAIVIL,49FW, DCMC, and SPO. After many reviews, the Acquisition Plan
   was approved on 24 Sep 97 in the Acquisition Strategy Panel (ASP) chaired by
   Mrs. Druyun. ASP members recognized and took advantqe of the opportunity to
   provide input and recommend changes.

5. Ida@ and eliminute redundimt tasks andpositions cunvntly in the $stem /%ogtum
UJTc4z (page 4, para I, first bullet)

    The SPO does not have any redundant tasks or positions. The IG report assumes that
    de&&cation of the F-l 17 program results in reduced nquirunents, md therefore,
    fewer people. In fact, the programbnsnot been completely declassifiedbut has been
    &lmowledged”. Therefore, the SPO security workload associated    with clnssified
    portions of the F-l I7 program has tit heen sign&xntly reduced.



                                                                                                5




                                                   33
Department of the Air Force Comments




      6. Ihtii     the tasks atut kveb-af~i     thut a sutahwnt      contmcbr ahowidpejbrm.        (page
      4, para 1, second bullet)

         The SPO ad LMSW have written the Statement of Work (SOW) for the TSPR contract,
         including specifk tasks and levds of effort. In order to llceomplishthis task, the F-l 17
         team establiihed a Transition IPT. The IPT accomplii         a zem-based analysis of the
         tasks currently performedby the contractor and the Govemment. The Implementation IPT
         is transforming the results of the Transition IPT into the level of effort appropriate for the
         TSPR contract. When this work is complete, the specifictasks will be identified in the
         Basis of E&mates (BOEs).

          In this concept, LMSW proposed absorbing and integrating the workload of other prime
          contractors and vendors, as we! as accomplishingthe customer interface function with the
          49FW previously performedby the SPO. LMSW will be responsible for the complete
          logistical support of the F- 117 at a system level. with performance levd metrics being
          used by a reduced SPO stat?’to monitor/measure contractor pe&mance for purposes of
          administering the contract and assessing incentive and award fets.

          The following is a list of current SPO functions that are not inherently Governmental that
          the contractor will perform as part of an expanded TSPR workload:

              a. Subcontract management (including oversight of the Navy DMISA work to
                 overhaul the aircraft engines)
              b. Program/project acquisition and sustainment management of aircraft and related
                 ground system modifications
              C. Program/project engineering and management
              d. Weapon system contiguration management
                 Inventory management for depot-level and field-level spares
              ; Slack, storage and issue of F-l 17 depot-level peculiar spares to 49FW
              8 Technical data management and distribution
              h. SPO weapon system reports and briefings (SEMR, WSPAR, PMR, APBs, etc )
              i. Direct support to 49FW

           The following is a list of inherent Govemmmt hmctions approved by the ASP and retained as
           core tasks:

                  Program direction
                  Requirements determimuion
                  Contact management of the prime contractor
                  Budgeting and overall financial exeartion responsibity
                  Product and service acceptance
                  Security policy




                                                                                                           6




                                                            34
                                              Department of the Air Force Comments




   I&aging risks associated with a TSPR contract, particularly with the change in contract
   type, were major objectives b the SPCULMSWtedm. The overall objective is to balance
   &eased risk with cost savings to the Government. The incentive structure designed for
   the contract will kentike costandperfionnance and will encourage the con&actorto
   manage risk while reducing F-I 17 total liiocycle support. There is a historical baseline to
   use in monitoring contractor pafbtmance since logistic5support has been performed on
   this mature system for many years.

   The Air Force intends to control performanceand costs through a three-pronged
   incentive: (1) a 3% Award Fee in the areas of management, technical performance, sub
   contract management, and customer support, (2) a 7% Incentive Fee in seven objective
   areas of contractor performance,and (3) a SO/SOcost share of any overrun or underrun.
   This highly incentivized contract relationship constitutes the F-l 17 SPO management plan
   to control the risks associated with performanceand costs.

   The BRAC decision to close McClellan AFB is an exceptional opportunity to accomplish
   innovative acquisition reform initiatives by awarding LMSW a TSPR contract and
   substantially reducing the size ofthe SPO. Since LMSW will remainthe logisticsexpert
   on the F-l 17,the concept of TSPR represents the lowest technical risk option.

   Further information on cost tracking and management,in&ding the roles of DCMC and
   DCAA, is included in item IO.

8. /The SF0 can otdyj dy on $20m&m inpwject cost mvidance to be realized over the 5-
year contmctperi~ but instead itpwjects cost avoiiknce of $65 milbn overan &year
period (page 4, para 1, fourth bullet)


   An &year projected cost avoidance is both realistic and reasonable. The IG is concemed
   that a large part of the potential savings availablein years six through eight would be lost if
   the contract was renegotiated at the conclusion of year Ike. While this is true, there are no
   plans to renegotiate unless new requirements or reductions in available timds require a
   change to the contract. Although renegotiation at any time is always a Government right,
   the intention is to negotiate a five-year contract with a three-year priced option (total of
   eight years). The anticipated savings will be an integral part of the contract from the
   beginning.

   The F-l 17 SPG agrees that the bulk of the LMSW estimated $80 million savings over the
   SPO projected funding requirements would result from long-term process improvements
   real&d in the option years. As stated above, the three-year priced option and the
   negotiated savings will be subject to the Government unilateral right to exercise. Not
   included in these savings are the projected Government personnel savings of $90 million
   over the same period.

   Finally-,the contmot will have a cost-&ring future. The contractor will be incentivieed
   to perform all contract requirements bdow the negotiated target cost and qua@ to
   receive half of the savings. (See disaasion of item IO.)

                                                                                                     7




                                                      35
Department of the Air Force Comments




       9. Idnrb’fy $431 hand       ~wa&onse     m&s and svpporl apuipmcni for terse. (page 4, para
       l,Hthbl&t)

          Warehouse Racks
          An e-valuationof the usability of the existing warehouse racks was conducted by AFMC
          with the fbllowing conc~sions:

                 The existing racks am not designed or fhbricatedto meet Seismic Zone 4
                 requirements of the Palmdale, CA area
                 The racks support only a limited number of conligurations and do not efficiently
                 support the layout of Building 720, AF Plant 42. Further, their height does not
                 allow maximumcube utilization within the bay.
                 The cost associated with teardown, packaging, shipping, and installation of the
                 existing racks versus new propexly-designedracks is cost prohibitive.
                 Additionally, more rack uprights, beams, and decking would have to be procured
                 to support the required layout.

          The evaluation d&rmincd the racks could not be cost-eff&tively utiiiied in the Palmdale
          warehouse facility. The SPO has o&red the racks to the Local Reuse Authority under the
          procedures establishedby BRAC.

          SUDDO~ Euuioment
          Following the BRAC process, the SPO requested authority from the Local Reuse
          Authority to relocate current warehouse support equipment to Palmdale. This request
          was denied due to their potential reuse at Sacramento. Additionally,a portion of the
          current support quipment is not compatiblewith the new racks and therefore required
          pr-.           This support equipment will remain for potential reuse at Sacramento.

       10. m       a&+&        cost trucking to manage cos?e       (page 4, para I, sixth bullet)

          Adequate cost tracking exists. The contractor has consistently demonstrated concern for
          cost control and has provided adequate reports to the SPO. LMSW continuously works
          with the SPO to provide timely and accurate cost reports, controls. and status update..
          Program budgets are establishedat the levels rquired to manage and control the
          authorized work. Regularly scheduledlinancial reports are provided and reviews are
          conducted with LMSW and SPO Program Managementto provide visibility. These
          reviews focus on incurred costs compared to operating budgets, variance trends, schedules
          and current estimates at completion.

          LMSW &tan&l personnel contiiously monitor cost performanceand report to the
          performing organizations and the SPO. FuunCal personnel also participate in the
          functional organi&ionrl program reviews as a fiuther check and balance on the company
          cost control process. Cast control systems are contim@ monitored by intcmal
          corporate audits to ensure structure is maintained.



                                                                                                      8




                                                          36
                                              Denartment of the Air Force Comments




      DCMCandDCAAhavethe responsibility     to constantlymonitorthe contractorcost and
      e&ating systems.Thisresponsibility  willcontinueduringthe pe&rmanceof the TSPR
      contract Currently,the contractoraccountingandestimatingsystemsare approvedand
      thereareno outstding CostAccountingStandardsviolations.

 11. Comidir the existing pm to &pm&d            to the contractorin piinning   for   controd
funding. (page 4, para 1, seventhbullet)


      Useandmanagement     of these valuable programassetshasbeena keypart of Transition
      IPT deliberations. Untilconsumed,the AirForcesparespipelinewillremainGovernment
      propertymanagedby LMSW.Today,thispipelineis sufficientto maintain the current F-
       117missioncapabilities.Asan anticipated  benetitof TSPR,the AirForceexpectsthe
      levelof sparesto be reducedin the ftture throughconsolidationof programresourcesby
      the contractor,reductionin repaircycletime,andreductionin sparesacquisitionlead
      times.

       The AirForceis followingan acquisitionprocessthat wiIileadto an annualnegotiated
       targetpricefor eachof the eightyears. The anticipatedreductionin sparespurchasedwill
       be reflected in the negotiated price. Thistnrgetpricewilltake intoaccounta fairand
       reasonablepricefor the levelof efFoncontracted.Thiswillbe the contractbaseline.

12. Mahea provisionfor GovemmetiMention ofcompetencyin the area of Imuobsewable
tmhnology.(page4, para 1, eighthbullet)

       A Low Observable(LO)Centerof Excellenceis beingestablishedat WrightPatterson
       AFBto collocateLO platformSPOs(B-2,F-22,andF-l 17). Likethe otherprograms,
       the F-l 17SPOwillcontinueto maintainanLO engineeringcapabilityat WPAFB.As part
       of the TSPRconcept,LMSWbecomesthe decisionauthorityfor sourceof repair,but is
       limitedby publiclawfromsourcingto a Governmentactivity.00-ALC is establishingan
       advancedcompositemanufacturing andrepairfacilityto supportthe B-2,F-22,andACM.
       The currentLO manufacturingeffortsat McClellanwillbe completedpriorto baseclosure
       andno fkure F-117 Government manufacturing requirements are planned.

Declassificationof the F-117Program

13. The F-Il7SPOnvicwoftkerrgMiLations~~d~e~p~                     was
&clauif& theAir Force hasnotconsided the clim&Wor of ndm&ntjimctions and
positionsndittingto&&s&c&n   of thcpmgram (page5, pare 1,fifthandsixthsentences)

      The IG believesthatthe F-l 17Programhasbeendeclassified
                                                            andthat this declassification
      hasnottranslatedintoadnmaticdropinpersonnel.Thisisnotthecase. TheF-117
      programhasnot been“declassified”, it hasonlybeen“acknowledged”withcertain
      &ssificdtionlevelsreducedor eliminated.

       TbeF-l 17SPOis nowproperlysizedto supportthe currentmethodof doingbusiness
       (PreTSPR).Sting adjustmentshavetakenplaceas a resultof changesto the security

                                                                                                9




                                                    37
Department of the Air Force Comments




         environment. The TSPR concept and the associated approved acquisition Wrattsy
         1cp1csents Mopportunity to reduce all categories of SPO staffing

      13A.$nx@aI!v, a@ lrpmgmn was dcchassif~ the ~stem fhgmm olfie retainui 63
      WIvWng       anditem nuulagementperwnnelthatpuforRl~rcariily~~letotkr
      Air Ferer bgistiu wmmnnitj.

         The SF’0 has 27 warm             personnelsupporting ail SM-AUYQL “blackw-orld
         programs” in&ding the F-l 17. Their tasks are not readily transferable to Air Force
         logistics community. This is because the items used by theseprograms are not stock-
         listed, nor resident in the Air Force Legacy computer systems and, therefore, cannot be
         handled by unclassified Air Force logistics facilities. The F-l 17 program is supported by a
         self-contained classified internal computer system. Its continued use was justified by an
         NSN-based analysis that showed it was the most cost-e&ctive stock msnagement
         method. The analysis validated maintaining n separate warehousing timction.

         The SPO has 28 F-l 17 item managers Item management could have transferred to other
         Air Logistics Centers, but a SPO analysis with DLA-Battle Creek showed this function
         could only be done if each peculiar item was Government cataloged The manpower and
         cost requirements to catalog all the F- 117peculiar items into the Legacy computer
         systems were estimated at $56 million. The Air Force did not pursue this option, based on
         lack of timding and no expectation of future pay back.

      13B.Sparjlc~y,    afier theprvgram was dcelauificrl, the sysjcrn Rogram Offie added wo
      securiry
          perso~~Ia&r          the dechwi~ation of theprogmm when sec+v asks should have
      been declining.

         In early 1990, additional workload from Aeronautical Systems Division @SD) moved to
         the F-l 17 SPO. This additional workload included security inspections of a8 prune and
         subcontractors performing &s&d work in support ofthe F-l 17. The security staff      in
         place could not have performed these inspections without hiring 2 additional personnel.

      14 @though security qtimn&s       change@, the F-11 7System l%granr Ofli has more
      than 200 an&orize$posit%ns H&V than &r&g        in size as is @ical when opmgmn
      b~nsi&~~ into urr&ssi~snstainmeaf     (Page 5, pars 2)

         “Acknowledgment” (the program has not been declassitied)did not reduce the SPO
         manpower requirements because of the previous!ystated costs associated with stocklisting
         the items and maintaining off-line computer systems. Manpower requirements increased
         as a result of further contract breakouts, normalii reporting requirements, and an
         incredse in organic workloads.




      15. o/the 186pa&ms, the uwst @iciasr ~anization rbrdjlfound tkat only 52 no
      rt-gnkdtopcrfanr Mm&y Gomn~fnactim              in amts mtch as con&u&g,


                                                                                                        10




                                                          38
                                             DeDartment of the Air Force Comments




j5nilnc~management,pwgwmdn,kadget~~k~              aildpwgmsaeurity.
 Tkqh,   tke anlieiplrlcd m&i personnel   ofMS million awibntd toa wdnclion of
                                      costs
200paroknd    may net be J&M        (page 5, pan 2, fifth and sixth sentences)

   Under the TSPR amcept, the projected SPO personal savings arc $90 million, not $65
   million. This savings is over the B-year contract period of pafomunce. These savings are
   both realistic and reasonable. A Minimum Effective Organization (MEO) study was
   perExmed by SM-ALC/FMon the F-l 17 SPO doing “business as usual” with breakout
   contracts and s@iticant reliance on Gwemment oversight of the contractor. The study
   validated a 186 person F-l 17 SPO size as &cient. Ofthe 186 positions, the ME0
   determined 52 positions perform inherently Government li.mctions. This ME0 addressed
   only personneVposition3 at SM-ALC, not Development System Manager @Sh4)
   personnel performing F-l 17 workJoadat ASC. Wright Patterson, AFB, Dayton, OH. The
   total ME0 SPO size would have been 226 had the study considered F- 117work at ASC.

   Under the TSPR concept, the basic management and responsibility structures change
   significantly. The ME0 determination that 52 positions were inherently Government
   fimctions is now being challenged under the TSPR structure. The Air Force recognizes
   that drawing down to a 20-person SPO is an aggr&ve god. However, the reduction
   from 226 authorizations to 55 alone results in cost savings of S9.9 million per year. The
   fi~rtherreduction to a SPO size of 20 would bring personnel savings to $11.9 million per
   year, for projected total savings of $90 million over the course of the g-year period of
   PerfOlllUIlCZ.




 16. Irem Managenunf As systems mabwe or mm        uul off&e c&s#ied envitvrmen~,
item management ~nsibili@                                             person&
                             is normally asswnd by Air Logistics Center
During program deda@ication, the Air Force r&wed but did nat ad to tmndion item
managemenl fwm      the &tern   Rogwm    Ofike to an Air l@stia     Gmtu   and wmmensnFclrrly
r&u prwnnd     kern manngemeni could be mow 4QicienUyperjiimed at an Air Lugistics
Gzmkr. The @km Pkvpm Ofice wwentiy has 36prrsormrl prsisnrd to item
mamagunenL (Page 6, para 2)

   This issue was addressed earlier in items 13 and 13A The Air Force decision was not to
   pursue the option of integrating item managementinto the Air Force logistics community,
   based on the lack of timding and no return on investment. Personnel assignments hove
   since decreased to 28 due to downsizing (i.e., reassignme&+,promotions, separations, and
   xtirements). Assignments will continue to decrease as the program approachesthe TSPR
   transition period.

   Under the TSPR concept the F- 117 supply support fim&on will be tmnsfbrred to LMSW
   and all but one item managana&upPly support position will be diminated in the SPO.

17. w-ng            and lhQqMn&n         The &a&m hgria!n       olficc has 27pawuld      that
pro*idc wurehollsillg and   tRlqw?won fin             wakwdrg       and bruuporfdin     is not a


                                                                                               11




                                                    39
Department of the Air Force Comments




      ~icd fun&onfor a $wtem Progr~ Q@x TACF-l I 7 c@nt@ pa              a own
      w&nuing   and rmasportationQ( a rash of the ch@fii na&re of theprogram (page 6,
      p=a 2)

         This issue was addressed earlier in items13 and 13B. Tbe IG statement is fundamentally
         cmrcct;a SPO organization would normally deal with DLA However, the distribution
         operation was establishedto operate in a classifiedenvironment. In addition, the F-l 17
         SPO handles all program unique assets which are assigned intunal ND stock numbers.
         The F-l 17 program continues to provide dedicated transportation for support to the
         49FW. Classifiedassets, which do not require special program access handling, are now
         shipped via normal Air Force channels.

         Under the TSPR concept the entire F- 117 warehousing and transportation fimction will be
         transferred to LMSW and all current positions eliminated.

      18. Con-      Management Tkl System Rvgmm t@ce hodaggressivdypurwed competitive
      brwkorrtproeurementpractices and cm         has 6 qfthe 9 contnxtpasonnd    managing
      uppro.Gmatdy180 brwkomt conbrrds The Air Chnbat Command has n4ivd a 23 percent
      saving in opewtionol cost%bewuse of spara brmkmd and coqditiu ptvxnm               The
      proposed reorganization of thr System Rogmm O&e mmmet& II reduction of six
      conbvct managementpersonnel Three co&act managementpcrsonnd would be retained lo
      manage theproposedLMSWcont~~~ The items that ~previomr~ broken out would be
      placednnderthcLMSWc-              LhBWwawldassmme~mibi&forprow~mentand
      management of spares Eliminodor of the sir contract mtmaganentpa&ons would decrwse
      Air Force custs by sir sakes (6 x SSO,OOO* $300,000), but tke &xmase m&l be atow than
      oflet by the imreasedLMSW mote&~/handling charges (as much as $7 miflion) for the 180
      breakout ~~&ICB that WouIdbe turned over to LlUSWfor tuhnien.           (page 6. para 4)

         Today F- 117AProgram support of the 180 break-out contracts require significantlymore
         than the 6 contracts personnel. The break-out support infrastructure is made up of a
         number of SPO disciplinesincluding production management specialists,item management
         specialists,equipment specialists,program managers, engineers and contracts personnel.
         By placing the responsibility of integration on the prime contractor, these positions can be
         eliminated along with many other SPO positions with the resultant cost savings far
         exceeding tbe $7 million in material handling.

         Under tbe TSPR concept, F-l 17 contract management and other SPO disciplines
         previously dedicated to breakout contracts will be eliminated. (see also discussion of item
         24).

      19. &&c&n Manageme& % S&tan &gram @Yii has 2Op~d~&ion momagement
      perso~~ndtotmckdepotmaintwancetwrk         iGuadd&onalpuso~~&areassigncdlo   the
      UlSWf4ciliQ in Palm& to monitor umtmdor~m                L TheF-117hasbunawtof
      pddon     for 8yem The number qfpmihtion mamgementpasitions appears to be
      acdve   and not in keeping with the acqdfion mfurm inihtiw of Axing quality



                                                                                                        12




                                                          40
                                              Department of the Air Force Comments




acwbwnCL    overhead systemRogwm op qbufliq amulwWe st@appems to dupii&
Lkjke      Gmtkact Management Command qua&y assnw ovhght   (page 6, pa 5)

There are a total of 25 personnd cwcntly assignedto the SPO Production Management, 18 at
Sacramemo and aeven at Palmdale. However, only a total of seven production management
specialists,between the two locations (six at Sacramento and one at Palmdale), track depot
maintenance work. These positions are primarilyresponsible for managing the qecia&d repair
activity,organicrepairBanduns&duledmaimenanceteguiranems.            There ia no duplication of
quality assurmcc oversight between the 9’0 and DCMC The SPO quality assurance staff
(three) at Pahndale perform Government acceptance inspections because their unique expatise is
not available at DCMC. The remaining Production Management Branch @afTatSacramento (12)
and SPO personnel assigned at Palmdale (three) have many other responsibilitieJincluding
Technical Order Management Activity, Service Bulletin and Kit vt,             Technical Library
management, Navy engine DMISA management, CLSS depot field team coordination, liaison
with the 49FW, contractor sect&y oversight and administration and supervision, all of which are
not associated with tracking depot maintenance work at the Palmdale depot.

    Under the TSPR concept, most posiions in this branch will be eliminated and in-plant
    inspection and contractor security oversight fimctions transfared to DCMC

2Q.&v&pmarl and Engince&g* Duplication of enginetring~irn     appears to exist
betwxn the SystkmRujprn Ojice and tk Lkwfopment Systkm O@ce. (page 7, pan 5)

There is no duplication of engineering functions between F- 117activities at SM-ALC and
ASC Today, the System Program Director (SPD), the warehouse and most of the F-l 17
SPO performing sustainment activities are located at SM-ALC, McClellan AFB, Sacramento,
CA. The Development System Manager (DSM) is located at ASC Wright-Patterson APB,
Dayton, OH and is responsible to the SPD for development/acquisitionactivities. The SPD is
the single fice to the customer, with overall responsibilityfor all program activities, in&dig
both sustahmxnt and development. The diversity of roles and responsibilitiesof the two
organizational arms are not duplicative in nature.

   Under the TSPR concept the issue of duplication becomes moot as all sustaining
   a@inee&g responsibilitieswill become LMSW tasks.




21. Moviryjivwn~ce          to cosl-plwJ_inclM’vlLfu cotmcdq inumses tke risk to the
Government 7Xe rkb to the Gnerament isfmhermagn@d              & thefi thatthe
management and oversi~htpwvidcd by tke System m              OlpFnwill be +ijicaniiy
&Iced ByranovingconQrbilivc pwcnwmentpncdcs Mdtmditionallsystem Rognun
O@ce oversight, the Air Fopcc has increused the risk to the (hwnment lie Air Force
stWegyhasmotrewg&dthea&driskandhasnotimplrnwrtcd~w~
necesq to manage the risk (page7, pan 2, sentences 3-6)




                                                                                                 13




                                                    41
Department of the Air Force Comments




         The incentive structure des&ned for the contract will incentivizc cost and perfomunce and
         will arcourage the contractor to manage risk wMe reducing F-l 17 life cycle cost. In
         additiw,logisticssupport has been performed on this mature system for my years.
         Thereis a historicalbaseline to use in monitoringcontractorperformance.Detailsof the
         SpOapproadrtomsMginsriskwaedisau3sdearliainitems?mdlO.

      BudQetm Cost Avoidance

      22. L&9W iaitiallyin&ated tothe Air Force thatthepmqmed contwctwouldwsnltin
      onlurrrlfostsovoidcdia~~ofSlOnJllionovrr~~BycarEorrbpdpcriod                 In
      es-     the o?igiaalpwposalof LmWpw~         costavokk!ce oflypm.~      s80
      millionowran Is-yrorperiodAir Force maaogementcouldnotfii& @a’n or provide
      supportingdatafor the total$80 m&a cost ovoi&nce. (pape 7, pan 1, sentw l-3)

         Based on LMSW estimates, the projected cost savings will be $80 million over 8 years as
         comparedto currentF-l 17ihding data. Thesecost savingswillbe negotiatedintothe
         targetpricefor each of the years. Additionally, over the same period, the Government
         intends to save a projected $90 million associated with the reduction of SPG personnel
         from 226 to a targetof 20.

      23. The Air Force pwvikd documentation tous inriicaling thotreking the total wques&d
      bvdgcrfortlicprogranrbyS6SmillionovcrM~y~paiod~pwsiMeiftheLMSWprop~~
      vwsacc@ed @xijIcally, thepwgwm muhi w&e the requestedbeet by SO million
      &ring the S-yearwatwctperiodand S45 million&ring thefm            thwe qmlo~yaws
      H-,       the Air Fomplon is towaego&e the wnmct rdthe end offiveyumbefm
      ~~gt~llLu~~nycMM4bcrovscUcAtFoprrkrs~rcccivrdIsstlkan
      the totalrequestedbudget,m qtmtionthe use of the b~&et OSthe baskfor cakn&ting
      avoidedco& (page8, para2, sentml3)

         The discussionof item8 addressesthis issue.

      24. The Air Force plan townsolidatesewwl coatw&fun&m m&r Q single smrcc
      uEpMd( the scopeof thepreseatwntmct of LMSW The oaa@es supportingthe acquisition
      stwtegyshouldbe explicitas tothe un&rtyingasmmptioas The ocqnidbonsih~&gvshould
      cle& de&ate ankipotedfutnre beae#tsoad costs. (page8. para 2. sentences4-6)

         The Government is shitling the rqnmsibilityof integrationto a singlecontractor(prime).
         The AirForceacquisitionstrategyclearlyddineatesanticipated ftture benefits and costs,
         and is explicit in its assumptions. The increased scope to the LMSWcontwt doesnot
         reflectadditional program costs. These costs are tran&rred Corn various current
         subcontwts managed by the Government. This concept of transferring subcontractor and
         vendor integration under a highly incentized contract structure is a key demcnt in the
         ability of the Air Force to achieve sign&ant reductions in SKI size and iife cycle cost.
         Air Force savings through FY06 are projected to be $90 million in person& reductions
         and $80 millionin anticipated contractor efiiciencks for an estimated total savings of S 170
         million. The be&it to the Govemm& is the abii to SubstantiaUy reduce F-l 17 life

                                                                                                        14




                                                          42
                                            Department of the Air Force Comments
                                                                                                      Final Report
                                                                                                       Reference




   cycle cost, transfk.rintegration responsibilitiesto LMSW and achieve substantial
   reductions in SPO pemnel costs

25. &en&     c, Tabi 2, shuws thi the ~W-prqpaud    m-g        clpp’wck will incraw
o~~&lprogmm cost As shownin thefisun in Appendir    C the wmHcIYngappwoch
                                                   i@ation No cost moi&nce wn be
m?turc thepmgrum to cost1+ncrmsesre&ctive of 110111101
bury rwlizedifthe omull wst of thepmgmwtis inma+       @age 8, par84,8cntmces 3-5)

   The current TSPR strategy anticipates a cost line substantiily below the projected budget
   line. By consoMatin~ total logistic support responsibilityinto one cmtract, the size of the
   SPO/LMSWF-l I7 team is reduced and cmmensu rate productivity dticiency inmdses
   are anticipated. Also, the TSPR strategy establishesan incentivized contract that
   encourages the contractor to reduce costs.

   Current F-l 17 bud@ data reflect the projected funding requirements. Under the
   historical annual sustainment contract approach, ACC would expect to experiencethese
   costs by rdying on a 226-person SPO to manage breakout contractors and integrate
   subcontractor efforts.




26. ~AirFom~lonlocolc~a~ouwdos~conridavdng~rodrrMd
supportequipmentin theSacramentoAir Lqistics Gnter vurehouse IQ rdocdng the
mcksand suppodequipmentto P&&k, theAir FOKCcouldmaike a w&m&uue of
$631 thousand I/the WyvcAouse   rachsondsuppoftquipmellt ateRatbun+m?dto
P&&k, then theyshouldbe identified(u avuilableto the Ll$me hosenalignmentand
&sum reuse authority.(page 8, last paragraph,
                                           fourth mtence)

   The discussion of item 9 addressesthis issue.

Cost Tracking

27. GMradH~Dola,            The,%jstemProgmnQ@cestakdinthe&@wkou~e
j~~n~llPPrOVPIllffCTfo?~ew~~LMSWrludfeirrurd~nclblcpricu
                                                                     from
 can be negotI&d basedon sappdn~ informationand documents the D&me Gntract
AuditAgencyand Defense GmtmctManagementGmmond m,        whenqppiiwbk
Acwding to hh&kal &at4 &stem Program Q@ce contmctjumndendwstana!Ws                                    Page 8
&rumentd t&t: (page9, first pamgraph)




   TheF-117SPOcamotascribetheahoveclaim.            Oatkwhole,thecontractswithLMSW
   havebeenfkirandsrtisfktory.
                          TbcSPObassum&idlyuMtmddforthelogiticn#ds
   oftheF-ll7hrover15yexars.
                          RctwccntheSPO,DCMCandDCAA,theGov~

                                                                                                 I5




                                                    43
Department of the Air Force Comments




         has the experience and cost d&we to negotiate a fair and reasonable price. By
         following the requirements ofFAR PM IS, a fair and rcaaonableprice will be negotiated

      28. Budget Data ptornidcd to LMSW In an Hi todevelopapartnedip withthe
      wntmtor, the Rogmm ErewrJvc i@t~pwviM the Government         ‘r totalbudgetd&a to
      LMVK Systemi+am O@cepersonnd rewgnizedthatpmidiw totalbudgetdateto the
      conmetor willwmp&ate the Government’s     ne@atio~~position LMSWmpruentatives
      atteakd theAqnisitionSbvteu Pad mettingon Akptanh 24,199 7. At tk meeting,F-
      117Jlrtcm~~~epusonnd~~~Wt~lrkckdgclhod~inarwd
      Asa~oftkpdcnlialbvdgdincnatc,~Wvabrrlirrdt~ilwovld~~n~~
      increaseitstentotiveproposal k a result,the LMSWpmpo.udappearsto be basedon the F-
      117bu&tdatamtherthanonactualanticipatedworhloed Weamfn&erwncemedthat
      the Air Fame has tstabikhedthe co-    badbe bad on fun& bnd@tedins&& of a
      &iaiMwtaly& of expectedm&load (page9, para 3)

         The available F- 117 budget will not bethe basis for either the contract cost or the
         calculated cost avoidance. Annual target prices will be developed and negotiated based on
         Basis of Estimates (BOEs) derived from a bottom-up development of requirements.
         The F-I 17 SPOILMSWteam has defined the requirementsof TSPR through the SOW.
         The contractor till provide BOEs that will be discretelypriced. The budgeting data was
         used for planning purposes only.




       29. AspartoftkrAirFo~eacqnisitionstmtegy, &?ingsparwwillktnmedovertoLMSW
      fanseiutiwnmct        ~AirF~erkarnorco~~arwlwrhioninIkcco~bosdirre
       wmnensnratr withthe l&d of projectednse of existingspam Tke F-11 7pmgmu has
       thm nvm.honsuthatwntainqppm%atdy $100.8 m&n nmh of eyen&k yares tkt
       snppattthe aim@ The sparesare in e&ion to rcadinesxpack-outboxes, so &&ion of
       acistingspareswovldnot aftit thenmiinesscapability of tk aircrop Wmhousing of F-
       117~crfScurclmcnioAir~~CLnirrir~ndanlto~fu~~cwrrcrdJL
      perf’      atHollomanAir Force BaseandLMSW The &stem Bvgmn O&e plans to
       movethe !JacnunentoAir Logistics&ter ))Ipcckousc to an LbfSWwerehauwin I+alm&le,
       Calijiiia  In add&n, the Air Forcejut#Iwtion and approdfm theLMSWwntmct
      d&mtes thattheAir Fme will provideincen%s for LMSWto&p&e &sting spares
      Honmw,bewuethesparesareGomment +nished m&id the wntmct castbaseline
      shonhibe reducedeqnivaieni to tk amountthatWUIk reali& thmgh d#don of spares
      (page9, pan 4, semnus l-7)

         Warehousing at Hoiknnan AFB and LA4!3Wis not redundant. Holloman AFB stocks onty
         mdaitl for which they have establisheda demand or speciallevel. LMSW stocks
         materiel and kits for depot and flight test use, and special materials with limited shelf life
         The Air Force intends to provide the spaw pipeline to the contractor to manage. Today,
         this pipeline is sufficient to maintain the current F-l 17 missioncapabilities. As an
         anticipated be-net3of TSPR, the Air Force expects 6&ue spares levels to be reduced.



                                                                                                          16




                                                           44
                                               Department of the Air Force Comments
                                                                                                         Final    Report
                                                                                                          Reference




   This reduction will be the result of consolidation of program resources at the contractor
   site, a reduction in repair cycle time, and a reduction in spares acquisition lead-times.

   The Air Force is following an acquisition process that will lead to an annual negotiited
   target price for each of the eight years. The antidpnted reduction in spares purchased will
   be reflected in the negotiated price This target price.will take into account a fair and
   reasonable price for the level of effort contracted. This will be the contract baseline.

30. TluF-lllSPO~orrcJyEir4t~creim~~olrd~uKs~th~
khroagh contmctor &#&ion, thepmgnm could saw ai lad M n&on thefirzryear and an
a&iliond S4 ad&n the secondyear oflhe wnlkzct % dcprcrionof the fwnabting existing
sponswonUrmltinaddilionalcost~~           @agelO,paraI,sentences9-10)

   There is no planned “give-away”of sp;lres. The value of spares transtked to LMSW
   control will be accounted for in the TSPR contract. The expe&&le computation system
   was changed at the start of FY98 to procure only a one-year economic order quantity
   (EOQ), versus the standard two-year EOQ. The SPO decision to make this change was
   based on a planned transition of spares managanent to Lh4SWin FY99. At that time,
   LMSW will immediatelyassume responsihiity for initiation of reprocurement actions and
   existing orders and spares must sustain the program until those orders are delivaed. The
   IG statistical analysis assumes that all transferred materiel will be used within the contract
   period, and specifically,within the first two years. In reality, materiel in stock includes
   vanishing vendor materiel that must support requirements for the entire life cycle of the
   weapon system, materiel that needs to be upgraded or modiied More use, and insurance
   and contingency items.

   Support of the 49FW has heen and will continue to be the F-I 17 SPOprime objective. The F-
   117 SPO believes the current level of spares is correct for the wing to meet its fully mission
   capable(FMC) rate with the fewest number of h4ICAp parts orders. These sune bottom-line
   goals are part of the LMSW TSPR philosophyand will be supported hy whatever levels they
   conclude are proper. Additional information on this issue is contained in the item I 1
   discussion.

Low Observable Tecbnolo~

3 1. The acqaisition plan of Ihe Air Fom has nol madeprovisionsto m&in in-hoase low
o&ma& technology cupuMifiea (page IO, para 2, first sentence)

   The discussion of item 12 addressesthis issue.

32. Tlic Air Force4pprowd the Acquisition!Wegy &I on ,!@&nkr 24,1997 lo au& a
SW, costplus-incent&-fkc contmct fbr snstakmt and &pot-iewd mdifd'on    of the F-
117aim$toZMSWfmS2biBion.          (pagell,paral,sentence2)                                               Page   10

   The discussion of item 1 addressesthis issue.



                                                                                                    I7




                                                     45
               Department of the Air Force Comments
Final Report
 Reference



                     33. Asa mdt, the Air Fom may be imp&men!jng    o contmchginitidw,wihut aakquate
                     nuwtagenuti con&h, that empkosira rcrhcirrgthe Covernment’sp~m   manftgmm3
                     infhmh~cbtre ovw rmkcing costs (page 11,psraI, sentence
                                                                           3)
Page   10
                        Thediscussion
                                   ofitan7 addresses
                                                  thisissue.




                                                                                                  18




                                                               46
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
Patricia A. Brannin
Brian M. Flynn
Delpha W. Martin
Ramon Garcia
Wendy Stevenson
